Board of Governors of the Federal Reserve System




Material Loss Review of First Georgia
          Community Bank




       Office of Inspector General

                                             June 2009
                                          June 29, 2009

The Honorable Daniel K. Tarullo
Chairman
Committee on Supervisory and Regulatory Affairs
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Governor Tarullo:

       Consistent with the requirements of section 38(k) of the Federal Deposit Insurance Act,
(FDI Act) as amended, 12 U.S.C. 1831o(k), the Office of Inspector General of the Board of
Governors of the Federal Reserve System conducted a material loss review of First Georgia
Community Bank. The FDI Act requires that the Inspector General of the appropriate federal
banking agency review the agency’s supervision of a failed institution when the loss to the
Deposit Insurance Fund (DIF) exceeds the greater of $25 million or 2 percent of the institution’s
total assets. The FDI Act specifically requires that we

     •   ascertain why the institution's problems resulted in a loss to the DIF;
     •   review the institution’s supervision, including the agency’s implementation of Prompt
         Corrective Action; and
     •   make recommendations for preventing any such loss in the future.
First Georgia Community Bank (First Georgia) was supervised by the Federal Reserve Bank of
Atlanta (FRB Atlanta), under delegated authority from the Board of Governors of the Federal
Reserve System (Board), and the Georgia Department of Banking and Finance (State). The State
closed First Georgia in December 2008, and the Federal Deposit Insurance Corporation (FDIC)
was named receiver. The FDIC estimated that the bank’s failure would result in a $72 million
loss to the DIF, or 31.5 percent of the bank’s $229 million in total assets.

      First Georgia failed because its Board of Directors and management did not adequately
control the risks associated with its (1) high concentration of acquisition, development, and
construction loans made to home builders and developers; and (2) reliance on non-core funding,
particularly brokered deposits. Weakening demand for housing in the local real estate market led
to significant loan losses that eroded the bank’s capital. The bank’s deteriorating capital position
triggered regulatory restrictions on renewing brokered deposits, thereby significantly impeding
liquidity and ultimately leading to First Georgia’s insolvency.

      With respect to supervision, FRB Atlanta complied with regulatory guidance concerning
the frequency of safety and soundness examinations, and conducted regular off-site monitoring
commensurate with concerns and risks identified during examinations. FRB Atlanta rated First
Georgia as a CAMELS composite 3 or lower during every safety and soundness examination
Governor Daniel K. Tarullo                              2                           June 29, 2009

since 2002, when the institution became a state-chartered member bank of the Federal Reserve
System.1 In addition to FRB Atlanta’s frequent criticisms of First Georgia’s high loan
concentrations, risk management, credit administration, and reliance on volatile non-core
deposits, regulators entered into four enforcement actions designed to address the bank’s
deficiencies.

      Nevertheless, First Georgia failed despite FRB Atlanta’s close supervision. Fulfilling our
mandate under section 38(k) provides an opportunity to determine, in hindsight, whether
additional or alternative supervisory actions could have been taken to decrease the likelihood of
the bank’s failure or to reduce the loss to the DIF. Our review of FRB Atlanta’s supervision of
First Georgia found that an asset concentration in speculative acquisition, development, and
construction loans contributed to the bank’s failure. We believe that the significant and growing
risk associated with this sizeable concentration in speculative construction loans, coupled with
deficiencies in credit administration and risk management, warranted a more forceful supervisory
response from FRB Atlanta during its 2006 safety and soundness examination.

      First Georgia’s supervisory history reveals a similar situation in 2003, when FRB Atlanta
did require the bank to reduce its high convenience store loan concentration because of
increasing credit risk and weaknesses in credit administration, loan underwriting, and
management oversight. While it is not possible to determine the degree to which a stronger
regulatory response in 2006 would have altered First Georgia’s subsequent decline, it is
reasonable to conclude that an earlier decrease in the speculative construction loan portfolio
could have reduced the loss to the DIF.

      We note that First Georgia’s financial performance was strong in 2006, the time frame
during which we believe FRB Atlanta could have directed the bank to reduce its speculative
construction lending exposure. However, recent statements made by Board officials emphasize
that supervisors must have an even firmer resolve and provide clear and very forceful
communication in “good times,” when risks appear low, losses or write downs have not yet been
recognized, and “optimism abounds.”

       The failure of a single community bank does not provide sufficient evidence to draw broad-
based conclusions. Nonetheless, First Georgia’s failure points to a valuable “lesson learned” that
Federal Reserve examiners and managers may find useful in planning and conducting future
examinations of community banks with similar characteristics. Accordingly, First Georgia’s
failure demonstrates that a forceful supervisory response is warranted, even in the presence of
strong financial performance, when community banks with weaknesses in risk management,
credit administration, and loan underwriting accumulate a high concentration in a risky asset
class.

     During the course of our review, we also found that FRB Atlanta did not fully comply with
supervisory guidance that addresses disagreements with CAMELS ratings assigned by state
regulators. FRB Atlanta disagreed with the CAMELS composite upgrade assigned after a 2007
examination conducted by the State. According to supervisory guidance, when a Federal
Reserve Bank disagrees with the rating assigned by a state regulator, the Reserve Bank should,
     1
         The CAMELS rating system is described in Appendix 3.
Governor Daniel K. Tarullo                       3                                June 29, 2009

among other things, (1) formally assign a separate CAMELS rating, and (2) record the separate
rating in a Federal Reserve examination database. While FRB Atlanta discussed their
disagreement with the State, and informed the bank’s Board of Directors that the institution
would continue to be monitored as though it had not been upgraded, the Reserve Bank did not
formally issue or record a separate CAMELS rating. Our report contains a recommendation
designed to address this issue.

      We provided our draft report for review and comment to the Director of the Division of
Banking Supervision and Regulation. The Director agreed with our recommendation and said
that he plans to send a reminder to ensure that Reserve Banks follow supervisory guidance
pertaining to formally assigning and recording a separate CAMELS composite rating when the
Reserve Bank disagrees with a rating assigned by a state supervisory agency. We plan to follow-
up on this and any other action taken to implement our recommendation. The Director’s
response is included as Appendix 4.

     We appreciate the cooperation we received from FRB Atlanta and Board staff during our
review. The principal contributors to this report are listed in Appendix 5. This report will be
added to our public web site and will be summarized in our next semiannual report to Congress.
Please contact me if you would like to discuss this report or any related issues.

                                           Sincerely,

                                            /signed/

                                     Elizabeth A. Coleman
                                       Inspector General

cc:   Vice Chairman Donald L. Kohn
      Governor Elizabeth A. Duke
      Mr. Roger T. Cole
      Mr. William B. Estes
Board of Governors of the Federal Reserve System




Material Loss Review of First Georgia
          Community Bank




       Office of Inspector General

                                              June 2009
                                                       Table of Contents


                                                                                                                                       Page

Background ....................................................................................................................................9

Objectives, Scope, and Methodology ............................................................................................9
 
Cause of the Failure .......................................................................................................................9

   High-Risk Business Strategy Featured Loan Concentrations ....................................................10
   Heavy Reliance on Non-Core Funding ......................................................................................12
   Deteriorating Local Real Estate Market Leads to Dramatic Increase in
   Problem Assets ...........................................................................................................................12

  Decline in Capital Leads to Funding Crisis and Insolvency .......................................................13

Supervision of First Georgia Community Bank .......................................................................14

   FRB Atlanta’s First Examination Resulted in a CAMELS Composite 3
   Rating and an Enforcement Action ............................................................................................15
   Subsequent Examinations Cited Concerns Regarding Loan Concentrations,
   Credit Administration, Risk Management, and Non-Core Funding ..........................................16
   FRB Atlanta Disagreed with the CAMELS Rating Assigned by the
   State in February 2007 ...............................................................................................................17

   FRB Atlanta Downgraded First Georgia to a CAMELS Composite 4
   Rating in December 2007 ...........................................................................................................17
   MOU Executed in January 2008 ................................................................................................18
   First Georgia Downgraded to a CAMELS Composite 5 Rating as a Result of the
   March 2008 Examination ...........................................................................................................18

   Written Agreement Executed .....................................................................................................18

   FRB Atlanta Implemented Prompt Corrective Action Provisions .............................................19

Conclusions, Lesson Learned, and Recommendation ..............................................................19




                                                                       7
                                                       Table of Contents

                                                                                                                                       Page

Analysis of Comments .................................................................................................................22

Appendixes....................................................................................................................................23

  Appendix 1 – Glossary of Banking and Regulatory Terms ........................................................25

  Appendix 2 – Key Events Timeline ............................................................................................29

  Appendix 3 – CAMELS Rating System .....................................................................................33

  Appendix 4 – Division Director’s Comments ............................................................................35

  Appendix 5 – Principal Contributors to this Report ...................................................................37




                                                                       8
Background
First Georgia Community Bank (First Georgia)—a small community bank in Jackson, Georgia
that opened in 1997—had three branches and two loan production offices serving residents and
businesses in several counties south of metropolitan Atlanta. First Georgia became a state-
chartered member bank of the Federal Reserve System (SMB) on October 1, 2002. The bank
was supervised by the Federal Reserve Bank of Atlanta (FRB Atlanta), under delegated authority
from the Board of Governors of the Federal Reserve System (Board), and the Georgia
Department of Banking and Finance (State).

The State closed First Georgia on December 5, 2008, and the Federal Deposit Insurance
Corporation (FDIC) was named receiver. In a letter dated December 30, 2008, the FDIC
Inspector General advised us that First Georgia’s failure would result in a material loss to the
Deposit Insurance Fund (DIF). The FDIC estimated that the bank’s failure would result in a
$72.2 million loss to the DIF, or 31.5 percent of the bank’s $229 million in total assets. Under
section 38(k) of the Federal Deposit Insurance Improvement Act (FDI Act), a loss to the DIF is
considered material if it exceeds the greater of $25 million or 2 percent of the institution’s total
assets.


Objectives, Scope, and Methodology
When a loss to the DIF is considered material, Section 38(k) of the FDI Act requires that the
Inspector General of the appropriate federal banking agency review the agency’s supervision of a
failed institution, including the agency’s implementation of Prompt Corrective Action, and

         •   ascertain why the institution's problems resulted in a loss to the DIF; and
         •   make recommendations for preventing any such loss in the future.

To accomplish our objectives, we reviewed the Commercial Bank Examination Manual and
relevant supervisory guidance. We interviewed staff and collected data from the Board in
Washington, D.C.; FRB Atlanta, the Georgia Department of Banking and Finance, and the
FDIC’s Division of Supervision and Consumer Protection in Atlanta, Georgia; and the FDIC’s
Division of Resolutions and Receiverships in Dallas, Texas. We also reviewed correspondence,
surveillance reports, Reports of Examination (examination reports) issued between 2003 and
2008, and examination work papers prepared by FRB Atlanta. Appendixes at the end of this
report contain a glossary that defines key banking and regulatory terms, a key events timeline,
and a description of the CAMELS rating system. We conducted our fieldwork from December
2008 through March 2009, in accordance with the Quality Standards for Inspections issued by
the Council of the Inspectors General on Integrity and Efficiency.


Cause of the Failure
First Georgia failed because its Board of Directors and management did not adequately control
the risks associated with its (1) high concentration of acquisition, development, and construction

                                                  9
(ADC) loans made to home builders and developers; and (2) reliance on non-core funding,
particularly brokered deposits. Weakening demand for housing in the local real estate market led
to significant loan losses that eroded the bank’s capital. The bank’s deteriorating capital position
triggered regulatory restrictions on renewing brokered deposits, thereby significantly impeding
liquidity and ultimately leading to First Georgia’s insolvency.

High-Risk Business Strategy Featured Loan Concentrations

Historically, First Georgia’s business strategy centered on developing high loan concentrations.
When FRB Atlanta began its first full scope examination in June 2003, First Georgia already had
a high concentration of convenience store loans, representing 46 percent of its total loan portfolio
and 419 percent of tier-1 capital. In general, concentrations of credit increase financial
institutions’ vulnerability to cyclical changes in the market place, and compound the risks
inherent in individual loans. Therefore, concentrations may present a substantial risk to the
safety and soundness of the institution.

Risk management practices for controlling First Georgia’s convenience store loan exposure were
insufficient because of weak credit underwriting and significant loan policy deficiencies. For
example,

         •   loan agreements often did not reference important financial information, or include
             key financial statements; and
         •   examiners found no evidence that appraisals for underlying collateral were
             reviewed to determine if assumptions were reasonable.

These deficiencies and the bank’s less than satisfactory financial condition resulted in a 2003
supervisory enforcement action. Among other things, the enforcement action precluded First
Georgia from making additional convenience store loans, and required periodic detailed
reporting to regulators. In response, First Georgia’s management decided to reduce the
convenience store exposure, and moved aggressively into the commercial real estate market,
particularly ADC lending to residential builders and developers. First Georgia’s 2004 strategic
plan stated that, “The Bank plans to move as quickly as possible, without a loss in profitability,
from a concentration in convenience store loans to becoming a factor in the acquisition,
development, and construction loan driven market . . . .”

To implement their new strategic objective, the bank hired a Chief Credit Officer to improve
credit administration and to develop an ADC loan portfolio. Even though this executive and the
lending staff that he recruited left First Georgia within two years, their efforts contributed to an
ADC concentration that eventually peaked at almost 500 percent of total capital in 2008. Chart 1
illustrates that First Georgia essentially substituted a concentration in convenience store loans for
a concentration in high-risk ADC lending.




                                                 10
Chart 1
First Georgia’s Concentrations
              600%




                400%                                                                      Concentrations
  Concentrations
  as a Percentage
  of Total Capital                                                                          ADC

              200%                                                                          Convenience
                                                                                            Store
                       Examiners began reporting ADC
                       concentrations in 2004
                 0%




                                   Federal Reserve Examination Report Issue Dates




By 2006, First Georgia’s ADC concentration totaled $103 million, including $63 million in
residential construction loans. The risks associated with the ADC portfolio were magnified by
the speculative nature of the residential construction loan component; 93 percent of these loans
were made to builders for constructing homes that were not pre-sold. This level of speculative
lending violated First Georgia’s internal policy, which limited such loans to 60 percent of the
residential construction loan portfolio.

Regulatory criticisms directed at First Georgia’s controls over the ADC concentration were
similar to those expressed when convenience store lending was a concern. However, First
Georgia’s Board of Directors and management made what, at times, appeared to be notable
improvements in response to recommendations and enforcement actions from regulators.
Ultimately, First Georgia did not establish a sustainable credit administration infrastructure based
on sound underwriting and loan administration practices. Accordingly, the systems and controls
in place were not sufficiently robust to identify, monitor, and appropriately manage the bank’s
ADC concentration risks, especially in changing market conditions. Examples of First Georgia’s
credit administration deficiencies included

          •   lack of current financial information and credit reviews of significant lending
              relationships;
          •   insufficient monitoring of problem loans identified by the internal grading system;
              and
          •   inadequate documentation (during underwriting) of builders’ profitability,
              experience, liquidity, historical performance, and global exposure to other lenders.



                                                       11
Sustained improvement in credit administration and risk management was hampered, at least in
part, by turnover of key leadership and staff. For example, the Chief Credit Officer left First
Georgia in 2005, and his loan production office staff also resigned. During the period covering
2005 to 2008, First Georgia was led by three different Presidents and experienced turnover of
other key staff, and members of the Board of Directors.

Heavy Reliance on Non-Core Funding

Attracting local core deposits posed significant challenges for First Georgia because of high
competition in its market. As a result, the bank was highly dependent on non-core funding
sources, such as brokered deposits, Federal Home Loan Bank (FHLB) borrowing, high-rate
deposits, and deposits concentrated in a few large customers. Reliance on non-core funding
sources, particularly brokered deposits, is considered a risky strategy. Brokered deposit
investors typically have no other relationship with or loyalty to the bank, and are only seeking
the highest return possible. As illustrated in Chart 2, First Georgia’s dependence on non-core
funding sources was considerably higher than its peers. For example, in 2006, First Georgia’s
dependence on non-core deposits reached 56 percent, compared to the peer average of only 16
percent.

Chart 2
First Georgia’s Dependence on Non-Core Funding
                  60%

                  50%

                  40%
                                                                                       First
       Net                                                                             Georgia
    Non-Core     30%
 Fund Dependence
                                                                                       Peer
      Ratio      20%                                                                   Group

                  10%

                   0%




                            Federal Reserve Examination Report Issue Dates



Deteriorating Local Real Estate Market Leads to Dramatic Increase in Problem Assets

First Georgia’s asset quality deteriorated significantly as the economy slowed and the demand
for residential housing declined. By the fourth quarter of 2007, the market areas served by First
Georgia had an inventory of vacant developed lots that ranged from 52 to 116 months, far
exceeding the eighteen to twenty-four months that is considered an acceptable level. As shown

                                                12
in Table 1, classified assets almost doubled from $6 million in October 2006; to $11 million six
months later; and then increased ten-fold, to $114 million, in the ensuing fourteen months. The
dramatic increase in classified assets could be attributed to the worsening economic conditions
and falling demand for residential real estate. According to examiners, by 2008, the high level of
classified assets were primarily composed of speculative residential ADC loans. However, First
Georgia’s management was not proactive in recognizing and downgrading the loans that
examiners cited as obviously distressed.

 Table 1
 First Georgia’s Classified Assets and Allowance for Loan and
 Lease Losses (ALLL) History
                               ($000’s omitted)
       Examination Report                               Classified
                                   Total Loans                                    ALLL
             Issue Date                                  Assets
      September 2003                 106,091              6,506                  2,098
      March 2004                     105,905              7,002                  2,044
      November 2004                  123,681a             6,206                  2,087 a
      September 2005                 167,233              4,476                  2,174
      October 2006                   205,084              6,486                  2,494
      April 2007                     230,380             11,038                  3,130
      December 2007                  236,645             43,165                  3,200
      July 2008                      209,471             114,166             6,700 / 14,000b
  a
      Uniform Bank Performance Report as of 6/30/2004
  b
      FRB Atlanta required First Georgia to increase the ALLL to $14 million from $6.7 million after
      reviewing First Georgia’s loan portfolio.

The growth in classified assets prompted a corresponding increase in the allowance for loan and
lease losses (ALLL). According to supervisory guidance, the ALLL should cover estimated
losses on loans that are determined to be impaired, as well as estimated losses inherent in the
remainder of the portfolio. In 2008, examiners noted weaknesses in the bank’s ALLL
methodology because it did not reflect the bank’s recent experience with increasing losses or the
devaluation of certain collateral in the current market. Accordingly, First Georgia’s management
was required to (1) raise the bank’s $6.7 million ALLL balance to $14 million (see Table 1), and
(2) re-file regulatory reports to reflect this change. Complying with the regulator’s requirement
to increase the ALLL by $7.3 million affected the bank’s financial condition, ultimately eroding
capital.

Decline in Capital Leads to Funding Crisis and Insolvency

First Georgia’s deteriorating capital position invoked the Prompt Corrective Action (PCA)
provisions of the FDI Act. PCA is a framework of supervisory actions intended to promptly
resolve capital deficiencies at troubled depository institutions. The $7.3 million increase in the
ALLL, in effect, resulted in First Georgia falling below the well capitalized PCA threshold to
adequately capitalized. Under section 29 of the FDI Act, banks that are deemed adequately
capitalized cannot accept, renew, or roll over brokered deposits, unless a waiver is obtained from
the FDIC.


                                                         13
First Georgia received a brokered deposit waiver in June 2008. However, as losses continued to
mount, the bank’s PCA capital position declined to undercapitalized one month later. As soon
as the bank became undercapitalized, the waiver expired because the FDI Act prohibits less than
adequately capitalized banks from accepting brokered deposits. By August 2008, First Georgia
had few prospects for funding $25 million of brokered deposits set to mature over the next four
months. Alternative funding sources, such as secondary lines of credit, FHLB borrowings, and
the Federal Reserve Discount Window, were not available because of the bank’s precarious
financial condition.

The weakening market conditions and resulting losses exposed the Board of Directors’ and
management’s failure to establish, implement, and sustain a strong credit administration
infrastructure. As the financial situation continued to deteriorate, the Board of Directors and
bank management failed to understand the severity of the bank’s problems, and did not
acknowledge the continuing instability of the ADC market. According to regulators, this lack of
understanding may have contributed to the Board of Directors’ and management’s failure to take
timely and decisive corrective action to stem further large losses.

A full scope examination began in October 2008 and revealed that First Georgia’s financial
condition was continuing to deteriorate while the volume of classified assets was increasing.
Examiners noted that the increase in the ALLL required to cover projected losses would lead to
insolvency. Efforts by First Georgia Board members to recapitalize the bank or identify a viable
acquisition or merger candidate were unsuccessful and, by late November, the bank’s PCA
capital position had dropped to critically undercapitalized. At that time, daily cash flow
calculations revealed significant outflows from maturing brokered deposits that could not be
replaced. On December 3, 2008, First Georgia’s Board of Directors returned the bank’s charter
to the State. The State closed First Georgia on December 5, 2008, and appointed the FDIC as
receiver.


Supervision of First Georgia Community Bank
As shown in Table 2, First Georgia was examined nine times between 2003 and 2008, five times
by FRB Atlanta and four times by the State. Regulators performed on-site supervision at least
once every ten months after FRB Atlanta completed its first examination in 2003. A twelve to
eighteen month examination interval would have been permissible after the September 2005 and
April 2007 State examinations, when the bank was upgraded to a CAMELS composite 2 rating.
Nonetheless, after the upgrades, FRB Atlanta conducted a visitation or an examination within
seven months. A synopsis of key Federal Reserve supervisory activities follows, including full
scope and targeted examinations, a visitation, and four enforcement actions.




                                               14
Table 2
First Georgia Supervisory Overview
                                         Supervisory
                     Examination            Agency                              CAMELS
    Examination                                                  Scope of                       Enforcement
                        Report          Conducting or                           Composite
     Start Date                                                Examination                        Actions
                      Issue Date           Leading                               Rating
                                       the Examination
     June 2003      September 2003       FRB Atlanta               Full              3              MOU
    January 2004     March 2004               State                Full              3
    August 2004     November 2004        FRB Atlanta               Full              3
                                                                                                MOU Lifted
     June 2005      September 2005            State                Full              2        Board Resolution
                                                                                                   Issued
 February 2006 a      April 2006         FRB Atlanta            Visitation          n/a

      July 2006      October 2006        FRB Atlanta           Full and CRE          3
                                                                  Target
    February 2007     April 2007              State                 Full             2        Board Resolution
                                                                                                   Lifted
     November                            FRB Atlanta              Target             4             MOU
                    December 2007
       2007                             (Joint with State)
     March 2008       July 2008          FRB Atlanta               Full              5             Written
                                                                                                  Agreement
                                              State
    October 2008b        n/a            (Joint with FRB            Full             n/a
                                            Atlanta)
a
  This on-site visit was prompted by a change in senior bank management, and included a review of asset quality,
liquidity, and management. The visitation is not counted as an examination.
b
  A final report was not issued because First Georgia was closed before examination work was completed.

FRB Atlanta’s First Examination Resulted in a CAMELS Composite 3 Rating and an
Enforcement Action

FRB Atlanta began its first full scope examination of First Georgia in June 2003, and
downgraded the bank to a CAMELS composite 3 from the CAMELS composite 2 assigned by
the State in the previous examination. Examiners rated asset quality, management, earnings, and
liquidity as less than satisfactory, citing weaknesses in risk management, credit administration,
and loan underwriting. In addition, the examination report noted that an increasing trend in
problem loans exposed First Georgia to an unacceptable level of risk.

Examiners cited First Georgia’s concentration in convenience store loans as their greatest
concern, and recommended that the concentration be reduced to a more manageable level. In
addition, issues were raised regarding the near-term liquidity risks associated with the bank’s
heavy reliance on volatile funding, particularly brokered deposits. Examiners also pointed to a
need for stronger strategic planning and Board of Director oversight.

Based on the bank’s deteriorating financial condition and the significance of the deficiencies
noted during the 2003 examination, FRB Atlanta and the State promulgated an informal
supervisory action; specifically, a Memorandum of Understanding (MOU). The MOU required
that the Board of Directors address a wide range of deficiencies and take actions to improve the
                                                          15
financial condition of the bank. The bank was directed to stop making new convenience store
loans, improve monitoring and management of the convenience store loan concentration, and
prepare a detailed strategic plan to address the bank’s problems and define its future direction.
In addition, the MOU required that the bank reduce the level of classified loans, and assess the
adequacy of senior and support staff.

Subsequent Examinations Cited Concerns Regarding Loan Concentrations, Credit
Administration, Risk Management, and Non-Core Funding

FRB Atlanta completed another full scope examination in November 2004. The MOU was kept
in place, despite improvements in risk management, internal controls, and staffing. First Georgia
once again received a CAMELS composite 3 rating because asset quality and earnings continued
to be less than satisfactory. Examiners noted that the bank was reducing its convenience store
loan concentration and redirecting lending towards the ADC market. Based on concerns with
internal loan monitoring and grading, examiners made a number of recommendations to enhance
loan administration. In addition, liquidity was reported as “stretched,” primarily because
management continued to rely on non-core funding.

FRB Atlanta performed an on-site visit in February 2006. The on-site visit followed a State
examination (begun in June 2005) that upgraded First Georgia to a CAMELS composite 2, and
replaced the MOU with a Board Resolution. Prompted by senior management and lending staff
changes that occurred in 2005, the visitation focused on asset quality, management, liquidity, and
strategic planning. An April 2006 letter summarizing FRB Atlanta’s observations noted that
bank management made progress in certain areas, particularly loan administration. However,
examiners expressed concern that First Georgia’s commercial real estate concentration had
reached four times the bank’s capital base, and speculative real estate construction lending
constituted approximately 250 percent of total capital. Liquidity risk remained a major issue
because of the significant level of brokered deposits. Examiners commented that alternative
sources of funding appeared to be limited, and that the bank’s contingency funding plan lacked
specificity regarding what funding sources might be available in the event of a liquidity crisis.

In July 2006, FRB Atlanta returned to perform another full scope examination that also included
a targeted examination of First Georgia’s commercial real estate portfolio. Examiners reported
that earnings were strong based on yields from real estate loans, and asset quality and capital
were at satisfactory levels. Nevertheless, the bank was downgraded to a CAMELS composite 3
from the CAMELS composite 2 rating assigned by the State during the previous examination.
The examination report indicates that First Georgia’s downgrade was attributed to (1) the high
level of speculative lending in residential construction; (2) deficiencies in risk management,
credit administration, and loan underwriting; and (3) an extreme reliance on non-core funding
and weaknesses in funding-related risk management. Examiners also commented that the Board
of Directors and management had not taken “explicit corrective action” on prior examination
comments, and that further improvement was needed to correct deficiencies and establish a firm
infrastructure for future growth.

FRB Atlanta sustained the Board Resolution that was put into place after the MOU was lifted in
2005. Although the bank made progress in fulfilling the Board Resolution, examiners noted that


                                                16
First Georgia had not yet complied with requirements pertaining to funding policies and
practices. The bank had also not complied with items requiring more comprehensive financial
analysis of large loans, and detailed reports on the bank’s commercial real estate lending
exposure.

FRB Atlanta Disagreed with the CAMELS Rating Assigned by the State in February 2007

The State began a full scope examination in February 2007 that resulted in lifting the Board
Resolution and upgrading First Georgia’s CAMELS composite rating to a 2. FRB Atlanta had
concerns about the bank’s liquidity position and management weaknesses and, as a result,
disagreed with the State’s CAMELS composite 2 rating. FRB Atlanta expressed their
disagreement to the State, and told First Georgia’s Board members that the Federal Reserve
would supervise the bank as though it were rated a CAMELS composite 3. In a July 2007 letter
to First Georgia’s President, an FRB Atlanta officer reiterated that asset quality was less than
satisfactory, and that the bank’s risk profile warranted more frequent reporting and
communications with supervisory authorities. By September 2007, First Georgia’s reports and
FRB Atlanta’s surveillance process revealed an alarming trend in delinquent loans and internal
classifications.

FRB Atlanta Downgraded First Georgia to a CAMELS Composite 4 Rating in December
2007

A significant increase in non-performing assets prompted FRB Atlanta and the State to conduct a
joint target examination in November 2007. Examiners reviewed loan files to evaluate credit
quality, loan documentation, and borrower’s capacity to continue loan payments. They also
reviewed the adequacy of recent appraisals and First Georgia’s strategy to manage and resolve
problem assets.

First Georgia was downgraded to a CAMELS composite 4, or “troubled condition.” Asset
quality was cited as poor due to a significant level of problem assets—particularly in the
commercial real estate portfolio—and credit administration and loan underwriting practices were
deemed inadequate. The December 2007 letter summarizing the results of the target examination
stated that the level of First Georgia’s classified assets and delinquent loans severely impaired
the bank’s overall financial condition, and could threaten the bank’s long-term viability if
immediate corrective measures were not taken. Examiners also noted that earnings were
marginal; management did not properly identify, measure, monitor, or control risks in the
commercial real estate portfolio; and there were weaknesses in the real estate appraisal process.
In addition, the Board of Directors was criticized for not establishing appropriate limits for
overall commercial real estate exposure, as suggested in the January 2007, Interagency Guidance
on Concentrations in Commercial Real Estate.2



      2
         The Federal Reserve and the other federal banking regulatory agencies issued interagency guidance that
addressed concentrations in commercial real estate (CRE) lending and sound risk management practices. The
guidance does not establish specific CRE lending limits; rather, it sets forth sound risk management practices that an
institution should employ when it has CRE concentration risk.

                                                         17
MOU Executed in January 2008

Regulators and First Georgia entered into an MOU in January 2008 as a result of the unsafe and
unsound practices related to asset quality, credit administration, and risk management identified
during the target examination. In communicating the target examination results, FRB Atlanta
stated that a future formal enforcement action would likely be taken based on a more thorough
analysis to be conducted during the full scope examination scheduled for March 2008. Among
the nine specific provisions included in the MOU were requirements to provide an acceptable
plan for improving classified assets, manage and mitigate commercial real estate concentrations
in light of the adverse market conditions, assess the adequacy of staffing, and outline the bank’s
current and future capital requirements. The MOU also compelled the bank to submit acceptable
written loan policies and procedures to address a wide range of credit and loan administration
issues. In addition, the bank was precluded from declaring or paying dividends without prior
approval from the regulators.

First Georgia Downgraded to a CAMELS Composite 5 Rating as a Result of the March
2008 Examination

FRB Atlanta’s full scope examination that began in March 2008 resulted in First Georgia being
downgraded to a CAMELS composite 5 rating. Banks in this group exhibit extremely unsafe
and unsound practices or conditions, and pose a significant risk to the DIF because failure is
highly probable. Examiners noted that the adverse rating was driven by the poor and weakening
condition of the bank’s loan portfolio, and its negative impact on earnings, capital, and liquidity.
Deterioration in the commercial real estate market was cited as jeopardizing the bank’s ongoing
viability. Asset quality was labeled as poor because of mounting levels of classified and non-
performing assets primarily composed of speculative ADC loans. Examiners noted that
unsatisfactory management and risk management practices were responsible for allowing the
growth of loan concentrations without prudent safeguards to control the associated risks.

Liquidity was also cited as unsatisfactory, and examiners criticized the bank’s continued
dependence on non-core funding, particularly brokered deposits. Examiners cautioned that the
bank was not likely to obtain a sufficient volume of funds on reasonable terms to cover loan
commitments or to meet unexpected cash needs. Furthermore, the ALLL methodology was
evaluated and deemed inadequate, due in part to weaknesses in problem loan identification. First
Georgia was required to increase the ALLL to $14 million, and re-file regulatory financial
reports to reflect the adjustment. Finally, examiners concluded that First Georgia was not in full
compliance with seven of the nine provisions included in the MOU.

Written Agreement Executed

As a result of the examination, in July 2008, FRB Atlanta requested that the Board prepare a
formal enforcement action—a Written Agreement—to replace the MOU. The draft document
prepared by the Board was reviewed by FRB Atlanta and the State in August, but First Georgia’s
Board of Directors was unable to convene until September 11, 2008, when the Written
Agreement was executed. The Written Agreement, which was posted on the Board’s public web
site, contained over twenty specific items requiring action on capital, earnings, liquidity, credit


                                                 18
administration, credit risk management, and asset improvement. Most of the items included in
the Written Agreement were also in the MOU; however, earnings and liquidity were added
because of the bank’s rapidly deteriorating financial condition.

FRB Atlanta Implemented Prompt Corrective Action Provisions

On May 5, 2008, FRB Atlanta notified First Georgia that the bank’s capital position, as defined
under PCA, had declined to adequately capitalized after the Board of Directors failed to make a
capital injection that was required under the January 2008 MOU. The adequately capitalized
category prohibits renewing or obtaining brokered deposits, unless a waiver is granted by the
FDIC. On May 13, 2008, First Georgia requested a waiver, and the FDIC approved the bank’s
request on June 20, 2008. As part of the approval, the FDIC stipulated that brokered deposits
must be reduced by 5 percent, and that the bank must remain above the undercapitalized PCA
category.

In late July 2008, First Georgia’s President notified regulators that the bank’s capital had
decreased further and had fallen below PCA’s undercapitalized threshold. FRB Atlanta issued a
PCA letter on August 1, 2008, and made the bank aware that additional restrictions were being
imposed. These restrictions included immediate expiration of the FDIC brokered deposit waiver,
and limits on the bank’s asset growth and dividend payments. In addition, First Georgia was
required to submit an acceptable capital restoration plan to FRB Atlanta by September 15, 2008.
The capital restoration plan First Georgia submitted in mid-September was deemed “not
acceptable” by the Federal Reserve, and the bank was asked to submit a revised capital
restoration plan by November 1, 2008. On November 25, 2008, FRB Atlanta notified First
Georgia’s Board of Directors that the preliminary results from a joint, full scope examination
determined that the bank had reached the critically undercapitalized PCA category. Less than
two weeks later, First Georgia was closed and placed into receivership.


Conclusions, Lesson Learned, and Recommendation
First Georgia failed because its Board of Directors and management did not adequately control
the risks associated with its (1) high concentration of speculative acquisition, development, and
construction loans made to home builders and developers; and (2) reliance on non-core funding,
particularly brokered deposits. Weakening demand for housing in the local real estate market led
to significant loan losses that eroded the bank’s capital. The bank’s deteriorating capital position
triggered regulatory restrictions on renewing brokered deposits, thereby significantly impeding
liquidity and ultimately leading to First Georgia’s insolvency.

With respect to supervision, FRB Atlanta complied with the frequency of safety and soundness
examinations prescribed in regulatory guidance, and conducted regular off-site monitoring
commensurate with concerns and risks identified during examinations. Although a twelve to
eighteen month examination interval would have been permissible after the State upgraded First
Georgia to a CAMELS composite 2 rating on two occasions, FRB Atlanta conducted a visitation
or an examination within seven months. As shown in Table 3, every examination conducted by
FRB Atlanta rated First Georgia as CAMELS composite 3 or lower. Our analysis of FRB


                                                19
Atlanta’s examination reports revealed frequent criticisms of First Georgia’s high loan
concentrations, risk management, credit administration, and reliance on volatile non-core
deposits. In addition, regulators entered into four enforcement actions designed to address
deficiencies found during safety and soundness examinations.

Table 3
CAMELS Ratings by Examination
                                                                     CAMELS Component
       Examination
                                Agency                                   Ratings
                             Conducting      CAMELS




                                                                               Management
                                                                                                                                  Enforcement




                                                                                                                   Sensitivity
                                                                                                       Liquidity
                                                                                            Earnings
                              or Leading     Composite




                                                                     Quality
                                                           Capital
                                                                      Asset
                 Report                                                                                                             Actions
  Start Date                      the         Rating
               Issue Date
                             Examination

     June      September                          3                                                                                   MOU
                              FRB Atlanta                  2           3       3            3          3           2
    2003         2003
   January       March                            3        2           3       3            3          2           2
                                 State
    2004         2004
   August      November                           3        2           3       3            3          3           2
                              FRB Atlanta
    2004         2004
                                                                                                                                   MOU Lifted
    June       September                          2
                                 State                     2           2       2            2          2           2             Board Resolution
    2005         2005
                                                                                                                                      Issued
   February       April                           a
                              FRB Atlanta
     2006         2006
     July        October                          3        2           2       3            1          2           3
                              FRB Atlanta
     2006         2006
   February       April                           2                                                                              Board Resolution
                                 State                     2           3       2            2          2           2
     2007         2007                                                                                                                Lifted
  November      December      FRB Atlanta
                               (Joint with        4        3           4       4            5          2           2                  MOU
    2007          2007            State)
    March           July                          5         5     5    5     5    5     4         Written
                               FRB Atlanta
     2008           2008                                                                        Agreement
  a
    Examination work conducted during the April 2006 visitation included reviews of certain high-dollar value
  loans and liquidity; no CAMELS rating was issued.
  Note: The State-led joint examination begun in October 2008 is not included above because First Georgia was
  closed before examination work was completed.

Nevertheless, First Georgia failed despite FRB Atlanta’s close supervision. Fulfilling our
mandate under section 38(k) provides an opportunity to determine, in hindsight, whether
additional or alternative supervisory actions could have been taken to reduce the likelihood of a
bank’s failure or the loss to the DIF. Our analysis of FRB Atlanta’s supervision of First Georgia
indicates that a more direct and forceful action may have served to reduce an asset
concentration—namely, speculative ADC loans for residential construction—that eventually
contributed to First Georgia’s failure. Specifically, in the 2006 safety and soundness
examination, FRB Atlanta stated that credit risks remained high from the prior examination, and
were increasing because of concerns related to speculative ADC residential construction loans,
and continuing weaknesses in credit administration and risk management.



                                                      20
In commenting on First Georgia’s ADC exposure, examiners noted that 93 percent of the bank’s
$63 million residential construction loan portfolio was “speculative” because credit extensions
were made to builders for constructing homes that were not pre-sold. Examiners stated that the
level of speculative lending exceeded First Georgia’s 60 percent internal policy limit, as well as
the industry standard of 30 to 35 percent. FRB Atlanta responded to the identified risks and
policy breach by stating that management should determine what measures were necessary to
ensure policy compliance, and reevaluate the appropriateness of the 60 percent policy limit
because it “reflects a very high tolerance for risk.”

We believe that the significant and growing risk associated with the sizeable concentration in
speculative residential construction loans, coupled with deficiencies in credit administration and
risk management, warranted a more forceful supervisory response compelling First Georgia to
reduce the speculative ADC exposure, as opposed to merely asking management to develop steps
to comply with the speculative lending policy. First Georgia’s supervisory history reveals a
similar situation in which examiners responded more aggressively. FRB Atlanta put First
Georgia under an MOU in 2003 that required the bank to reduce its high convenience store loan
concentration because of increasing credit risk, and notable deficiencies in credit administration,
loan underwriting, and management oversight. While it is not possible to determine the degree
to which a stronger regulatory response in 2006 would have altered First Georgia’s subsequent
decline, it is reasonable to conclude that an earlier decrease in the speculative construction loan
portfolio could have reduced the loss to the DIF.

We note that First Georgia’s financial performance was strong in 2006, the time frame during
which we believe FRB Atlanta could have directed the bank to reduce its speculative
construction lending exposure. The 2006 examination report stated that First Georgia’s earnings
were strong as a result of loan yields from the construction portfolio; asset quality was
satisfactory due to the low levels of classified assets, past due loans, and loan losses; and a new
management team had recently taken over. However, recent statements by Board officials
provide a valuable perspective that we believe is relevant to the timing and forcefulness of
supervisory efforts. These officials acknowledged that supervisors must have an even firmer
resolve and provide clear and very forceful communication in “good times,” when risks appear
low, losses or write downs have not yet been recognized, and “optimism abounds.”

Lesson Learned

The failure of one small community bank does not provide sufficient evidence to draw broad-
based conclusions. Nevertheless, First Georgia’s failure points to a valuable lesson learned that
Federal Reserve examiners and managers may find useful in planning and conducting future
examinations of community banks with similar characteristics. Accordingly, First Georgia’s
failure demonstrates that a forceful supervisory response is warranted—even in the presence of
strong financial performance—when community banks with weaknesses in risk management,
credit administration, and loan underwriting, accumulate a high concentration in risky assets.




                                                21
Recommendation: We recommend that the Director of the Division of Banking
Supervision and Regulation ensure that Reserve Banks follow supervisory guidance to
formally assign and properly record a separate CAMELS composite rating when the
Reserve Bank disagrees with the rating assigned by a state supervisory agency.

As noted earlier, FRB Atlanta disagreed with the CAMELS composite 2 rating issued by the
State after the 2007 examination. FRB Atlanta told State officials that a CAMELS composite 3
rating was more appropriate because of concerns with the bank’s liquidity position and
management weaknesses. In addition, during a First Georgia Board of Directors meeting, FRB
Atlanta noted that the bank would be supervised as though it were a CAMELS composite 3, and
that bank-provided reports on non-performing loans, real estate concentrations, and liquidity
would continue to be closely monitored.

We found that FRB Atlanta did not fully comply with supervisory guidance that addresses
disagreements with CAMELS ratings assigned by state regulators.3 According to the guidance, a
Federal Reserve Bank should, among other things, (1) formally assign a separate CAMELS
rating when there is a disagreement with the rating assigned by the State, and (2) record the
separate rating in the Federal Reserve’s National Examination Database.4 While FRB Atlanta
continued to monitor First Georgia as though it were a CAMELS composite 3, it did not formally
issue or record a separate CAMELS rating.


Analysis of Comments
We provided a copy of this report to the Director of the Division of Banking Supervision and
Regulation for review and comment. His response, included as Appendix 4, indicates agreement
with the report findings and recommendation. The Director agreed that a more aggressive
supervisory response to force a reduction in the high concentration of risky assets at an earlier
stage, even in the presence of strong financial performance, may have averted some loss
ultimately incurred as a result of the bank's failure. He plans to implement our recommendation
by sending a reminder to ensure that Reserve Banks follow supervisory guidance pertaining to
formally assigning and recording a separate CAMELS composite rating when the Reserve Bank
disagrees with the rating assigned by a state supervisory agency. We plan to follow-up on this
and any other action taken to implement our recommendation.

The Director welcomed the report's observations and contribution to understanding the reasons
for First Georgia’s failure. He noted that the events described in the report are a vivid reminder
to all supervisors of the critical importance of the early detection of issues and close supervision.
The Director also cited the dangers of high concentrations in risky assets that are subject to
dramatic and swift market swings that may ultimately be beyond the bank's ability to overcome.

      3
         Supervision and Regulation Letter 99-17, Supervisory Ratings for State Member Banks, Bank Holding
Companies and Foreign Banking Organizations, and Related Requirements for the National Examination Data
System.
       4
         The National Examination Database enables Federal Reserve supervisory staff, as well as state and other
federal banking authorities to access supervisory documents, as well as financial and banking structure data.


                                                        22
Appendixes
Appendix 1 – Glossary of Banking and Regulatory Terms

Acquisition, Development, and Construction (ADC) Loans
ADC loans are a component of Commercial Real Estate that provide funding for acquiring and
developing land for future construction, and providing interim financing for residential or
commercial structures.

Allowance for Loan and Lease Losses (ALLL)
The ALLL is a valuation reserve established and maintained by charges against the financial
institution’s operating income. As a valuation reserve, it is an estimate of uncollectible amounts
that is used to reduce the book value of loans and leases to the amount that is expected to be
collected. These valuation allowances are established to absorb unidentified losses inherent in
the institution’s overall loan and lease portfolio.

Board Resolution
A Board Resolution is an informal enforcement action involving commitments made by the
bank’s Board of Directors that are incorporated into the bank’s corporate minutes.

Brokered Deposits
Brokered Deposits are deposits that are placed in a savings institution by a broker who gathers
funds from others and packages the funds in batches of $100,000. The broker then shops for
financial institutions paying the highest rates and invests in multiple $100,000 certificates of
deposit, which typically pay the highest rates of interest and are federally insured.

Classified Assets
Classified assets are loans that exhibit well-defined weaknesses and a distinct possibility of loss.
The term ‘‘classified’’ is divided into more specific subcategories ranging from least to most
severe: ‘‘substandard,’’ ‘‘doubtful,’’ and ‘‘loss.’’ An asset classified as ‘‘substandard” is
inadequately protected by the current sound worth and paying capacity of the obligor or of the
collateral pledged, if any. An asset classified ‘‘doubtful” has all the weaknesses inherent in one
classified as “substandard,” with the added characteristic that the weaknesses make collection or
liquidation in full, highly questionable and improbable. Assets classified “loss” are considered
uncollectible and of such little value that their continuance as a bankable asset is not warranted.

Commercial Real Estate (CRE)
CRE loans are land development and construction loans (including one-to-four family residential
and commercial construction loans), and other land loans. CRE loans also include loans secured
by multifamily property, and nonfarm nonresidential property where the primary source of
repayment is derived from rental income associated with the property, or the proceeds of the
sale, refinancing, or permanent financing of the property.




                                                 25
Appendix 1 (continued)

Concentration
A concentration is a significantly large volume of economically related assets that an institution
has advanced or committed to a certain industry, person, entity, or affiliated group. These assets
may, in the aggregate, present a substantial risk to the safety and soundness of the institution.

Core Deposits
Core deposits are small denomination time deposits and checking accounts acquired in a bank's
natural market area, counted as a stable source of funds for lending. These deposits have a
predictable cost, imply a degree of customer loyalty, and are less interest rate sensitive than
short-term certificates of deposit and money market deposit accounts.

Enforcement Actions
The Federal Reserve Board has a broad range of enforcement powers that include formal or
informal enforcement actions that are typically taken after the completion of an on-site bank
examination. Formal enforcement actions consist of Cease-and-Desist Orders and Written
Agreements, while informal enforcement actions include Commitments, Board Resolutions, and
Memoranda of Understanding.

Liquidity
Liquidity is the ability to accommodate decreases in liabilities and to fund increases in assets. A
bank has adequate liquidity when it can obtain sufficient funds, either by increasing liabilities or
converting assets, promptly and at a reasonable cost.

Memorandum of Understanding (MOU)
An MOU is a highly structured written, but informal, enforcement action that is signed by both
the Reserve Bank and the member bank’s Board of Directors. An MOU is generally used when
a bank has multiple deficiencies that the Reserve Bank believes can be corrected by the present
management.

Net Non-Core Funding Dependence Ratio
The Net Non-Core Funding Dependence ratio measures the extent to which banks fund assets
with non-core funding. Higher ratios reflect a reliance on funding sources that may not be
available in times of financial stress or adverse changes in market conditions.

Non-Core Deposits
Non-core deposits include federal funds purchased, Federal Home Loan Bank advances,
subordinated notes and debentures, CDs of more than $100,000, and brokered deposits.

Nonperforming loans
The sum of total loans and lease financing receivables past due 90 or more days and still
accruing interest, total nonaccrual loans and lease financing receivables, and other real estate
owned.


                                                 26
Appendix 1 (continued)
Prompt Corrective Action (PCA)
PCA is a framework of supervisory actions, set forth in 12 U.S.C. 1831o, for insured depository
institutions whose capital position has declined below certain threshold levels. It was intended to
ensure that action is taken when an institution becomes financially troubled in order to prevent a
failure or to minimize resulting losses to the Deposit Insurance Fund. The capital categories are
well capitalized, adequately capitalized, undercapitalized, significantly undercapitalized, and
critically undercapitalized.

Tier 1 Capital
Tier 1 capital is a regulatory capital measure that may include common shareholder’s equity
(common stock, surplus, and retained earnings), non-cumulative perpetual preferred stock, and
minority interests in the equity accounts of consolidated subsidiaries.

Uniform Bank Performance Report (UBPR)
The UBPR is an individual analysis of a financial institution’s financial data and ratios that
includes extensive comparisons to peer group performance. The report is produced by the
Federal Financial Institutions Examination Council for the use of banking supervisors, bankers,
and the general public, and is produced from quarterly data submitted by banks.

Underwriting
Underwriting is part of a bank’s lending policies and procedures that enable the bank’s lending
staff to evaluate all relevant credit factors. These factors include the capacity of the borrower or
income from the underlying property to adequately service the debt; the market value of the
underlying real estate collateral; the overall creditworthiness of the borrower; the level of the
borrower’s equity invested in the property; any secondary sources of repayment; and any
additional collateral or credit enhancements, such as guarantees, mortgage insurance, or takeout
commitments.

Written Agreement
A Written Agreement is a formal, legally enforceable, and publicly available action to correct
practices that are believed to be unlawful, unsafe, or unsound. All Written Agreements must be
approved by the Board’s Director of the Division of Banking Supervision and Regulation, and
the General Counsel.




                                                 27
Appendix 2 – Key Events Timeline
Date         Key Event

03/11/2002   FRB Atlanta conducted a pre-membership assessment in conjunction with a State
             examination.

10/01/2002   First Georgia became a state member bank.

06/16/2003   FRB Atlanta began its first full-scope examination. Examination report issued
             September 2003 assigned a CAMELS composite 3 rating.

09/20/2003   FRB Atlanta placed First Georgia under an MOU.

01/13/2004   State began a full scope examination. Examination report issued March 2004,
             assigned a CAMELS composite 3 rating. MOU remained in effect. Examination
             report noted that First Georgia hired a Chief Credit Officer to develop an ADC
             loan portfolio.

08/23/2004   FRB Atlanta began a full scope examination. Examination report issued in
             November 2004 assigned a CAMELS composite 3 rating. MOU remained in
             effect.

05/18/2005   First Georgia added a full service branch as a strategy to increase core deposits.

06/15/2005   State began a full scope examination. Examination report issued September 2005
             upgraded First Georgia to a CAMELS composite 2 rating. MOU is replaced with
             a Board Resolution.

10/19/2005   Both the President and the Chief Executive Officer (CEO) of First Georgia
             resigned. An experienced bank executive was hired as President and CEO before
             the end of the month.

02/27/2006   FRB Atlanta conducted a visitation because of significant changes in bank
             management and lending personnel, and issued a summary letter in April 2006.

07/17/2006   FRB Atlanta began a full scope examination. Examination report issued October
             2006 downgraded First Georgia to a CAMELS composite 3 rating. Board
             Resolution remained in place. FRB Atlanta also began a target examination
             focusing on commercial real estate.

02/23/2007   State began a full scope examination. Examination report issued in April 2007
             upgraded First Georgia to a CAMELS composite 2 rating. Board Resolution
             lifted.




                                              29
Appendix 2 (continued)
Date         Key Event

05/2007      FRB Atlanta granted approval for opening another branch office.

07/2007      FRB Atlanta communicated with First Georgia because ongoing surveillance
   to        revealed alarming trends in delinquent loans and internal classifications, as well
09/2007      as a substantial increase in unsold homes and lots.

10/22/2007   FRB Atlanta and State officials attended a First Georgia Board meeting to discuss
             issues related to asset deterioration.

11/13/2007   FRB Atlanta and State began a joint examination. Examination report issued
             December 2007 downgraded First Georgia to a CAMELS composite 4 rating
             reflecting the bank’s troubled condition.

01/17/2008   Regulators and First Georgia enter into an MOU.

03/04/2008   FRB Atlanta and State officials met with First Georgia senior management and
             Directors to discuss the bank’s declining financial condition and the continued
             weakening real estate market. First Georgia Directors commit to inject the
             necessary capital.

03/31/2008   FRB Atlanta began a full scope examination. Examination report issued July
             2008 downgraded First Georgia to a CAMELS composite 5 rating. MOU
             remained in place.

05/08/2008   FRB Atlanta, State, and FDIC visited First Georgia to discuss the bank’s
             condition, and required First Georgia’s Board of Directors to provide weekly
             liquidity reports.

05/19/2008   First Georgia fell to the adequately capitalized PCA category, which jeopardized
             the bank’s ability to attract brokered deposits; First Georgia submitted brokered
             deposit waiver request to FDIC.

06/20/2008   FDIC granted First Georgia a 90-day brokered deposit waiver.

06/25/2008   Ongoing discussions and correspondence between First Georgia and FRB Atlanta
   to        continued to focus on the bank’s troubled financial condition.
07/27/2008




                                              30
Appendix 2 (continued)
Date         Key Event

08/01/2008   FRB Atlanta issued a PCA letter affirming that the bank was undercapitalized.
             The FDIC brokered deposit waiver immediately expired and additional
             restrictions were imposed.

08/05/2008   FRB Atlanta, State, and FDIC made another visit to discuss the bank’s
             deteriorating financial condition.

09/11/2008   Federal Reserve Board placed First Georgia under a Written Agreement.

10/10/2008   FRB Atlanta and the State began a joint examination.

11/25/2008   FRB Atlanta notified First Georgia that it was critically undercapitalized for PCA
             purposes based on the preliminary results of the joint examination.

12/05/2008   State closed First Georgia and appointed FDIC as receiver.




                                             31
Appendix 3 – CAMELS Rating System

Under the current supervisory guidance, each institution is assigned a composite rating based on
an evaluation and rating of six essential components of an institution’s financial condition and
operations. These component factors address the adequacy of capital, the quality of assets, the
capability of management, the quality and level of earnings, the adequacy of liquidity, and the
sensitivity to market risk (CAMELS). Evaluations of the components take into consideration the
institution’s size and sophistication, the nature and complexity of its activities, and its risk
profile.

Composite and component ratings are assigned based on a 1 to 5 numerical scale. A “1”
indicates the highest rating, strongest performance and risk management practices, and least
degree of supervisory concern, while a “5” indicates the lowest rating, weakest performance,
inadequate risk management practices and, therefore, the highest degree of supervisory concern.

Composite Rating Definition
The five composite ratings are defined and distinguished below. Composite ratings are based on
a careful evaluation of an institution’s managerial, operational, financial, and compliance
performance.

Composite 1

Financial institutions in this group are sound in every respect and generally have components
rated 1 or 2. Any weaknesses are minor and can be handled in a routine manner by the Board of
Directors and management. These financial institutions are the most capable of withstanding the
vagaries of business conditions and are resistant to outside influences such as economic
instability in their trade area. These financial institutions are in substantial compliance with laws
and regulations. As a result, these financial institutions exhibit the strongest performance and
risk management practices relative to the institution's size, complexity, and risk profile, and give
no cause for supervisory concern.

Composite 2

Financial institutions in this group are fundamentally sound. For a financial institution to receive
this rating, generally no component rating should be more severe than 3. Only moderate
weaknesses are present and are well within the Board of Directors’ and management’s
capabilities and willingness to correct. These financial institutions are stable and are capable of
withstanding business fluctuations. These financial institutions are in substantial compliance
with laws and regulations. Overall risk management practices are satisfactory relative to the
institution’s size, complexity, and risk profile. There are no material supervisory concerns and,
as a result, the supervisory response is informal and limited.




                                                 33
Appendix 3 (continued)
Composite 3

Financial institutions in this group exhibit some degree of supervisory concern in one or more of
the component areas. These financial institutions exhibit a combination of weaknesses that may
range from moderate to severe; however, the magnitude of the deficiencies generally will not
cause a component to be rated more severely than 4. Management may lack the ability or
willingness to effectively address weaknesses within appropriate time frames. Financial
institutions in this group generally are less capable of withstanding business fluctuations and are
more vulnerable to outside influences than those institutions rated a composite 1 or 2.
Additionally, these financial institutions may be in significant noncompliance with laws and
regulations. Risk management practices may be less than satisfactory relative to the institution’s
size, complexity, and risk profile. These financial institutions require more than normal
supervision, which may include formal or informal enforcement actions. Failure appears
unlikely, however, given the overall strength and financial capacity of these institutions.

Composite 4

Financial institutions in this group generally exhibit unsafe and unsound practices or conditions.
There are serious financial or managerial deficiencies that result in unsatisfactory performance.
The problems range from severe to critically deficient. The weaknesses and problems are not
being satisfactorily addressed or resolved by the Board of Directors and management. Financial
institutions in this group generally are not capable of withstanding business fluctuations. There
may be significant noncompliance with laws and regulations. Risk management practices are
generally unacceptable relative to the institution’s size, complexity, and risk profile. Close
supervisory attention is required, which means, in most cases, formal enforcement action is
necessary to address the problems. Institutions in this group pose a risk to the Deposit Insurance
Fund. Failure is a distinct possibility if the problems and weaknesses are not satisfactorily
addressed and resolved.

Composite 5

Financial institutions in this group exhibit extremely unsafe and unsound practices or conditions;
exhibit a critically deficient performance; often contain inadequate risk management practices
relative to the institution’s size, complexity, and risk profile; and are of the greatest supervisory
concern. The volume and severity of problems are beyond management’s ability or willingness
to control or correct. Immediate outside financial or other assistance is needed in order for the
financial institution to be viable. Ongoing supervisory attention is necessary. Institutions in this
group pose a significant risk to the Deposit Insurance Fund and failure is highly probable.




                                                 34
Appendix 4 – Division Director’s Comments

                      BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

                             DIVISION OF BANKING SUPERVISION AND REGULATION



Date:    June 26, 2009

To:      Elizabeth A. Coleman, Inspector General

From:    Roger T. Cole, Director, Banking Supervision & Regulation /signed/
Subject: Material Loss Review of First Georgia Community Bank


          The staff of the Division of Banking Supervision and Regulation has reviewed the draft
Report on the Failure of First Georgia Community Bank (FGCB) prepared by the Office of Inspector
General (IG) in accordance with section 38(k) of the Federal Deposit Insurance Act. The report notes
that FGCB failed because its Board of Directors and management did not adequately control the
risks associated with its (1) high concentration of speculative acquisition, development, and
construction (ADC) loans made to home builders and developers, and (2) reliance on non-core
funding, particularly brokered deposits.

          We concur with the findings of the report that the Federal Reserve Bank of Atlanta had this
bank under close supervision from the outset. The Reserve Bank identified key weaknesses in risk
management at the very first examination of the bank after it became a member of the Federal
Reserve System, and assigned a less than satisfactory rating. Moreover, the Federal Reserve
Bank of Atlanta persisted in criticizing the bank management for failing to address weaknesses and
continued to assign less than satisfactory ratings, notwithstanding interim rating upgrades by the State
of Georgia. We also agree that a more aggressive supervisory response to force a reduction in the high
concentration of risky assets at an earlier stage, even in the presence of strong financial performance,
may have averted some loss ultimately incurred as a result of the bank's failure. This observation
benefits from the hindsight of observing the subsequent speed of deterioration in ADC portfolios
across the industry and particularly in this region.

          We note that the Federal Reserve Bank of Atlanta strongly disagreed with the 2006
composite "2" rating assigned FGCB by the State of Georgia, and appropriately conveyed to the bank
that it would be supervised by the Federal Reserve as a composite “3,” and that the Reserve Bank did
so. However, we also note the requirements of SR Letter 99-17, which call for the Reserve Bank to
formally assign a separate rating in the case of a disagreement with a state rating, and to reflect
that rating change in the National Information Center database. The Division concurs with the
recommendation contained in the IG report, and will be sending a reminder to the Reserve Banks to
adhere to the guidance contained in SR Letter 99-17.

       Board staff very much appreciates the opportunity to comment on the IG report and
welcomes the report's observations and contribution to understanding the reasons for FGCB's failure.
The events described in the report are a vivid reminder to all supervisors of the critical importance of

                                                   35
the early detection of issues and close supervision, but also the dangers of high concentrations in risky
assets that are subject to dramatic and swift market swings that may ultimately be beyond the bank's
ability to overcome.




                                                   36
Appendix 5 – Principal Contributors to this Report
Timothy P. Rogers, Project Leader and Senior Auditor
Annabelle Saez, Senior Auditor
Chie N. Hogenmiller, Auditor
David K. Horn, Auditor
Kimberly A. Whitten, Project Manager
Anthony J. Castaldo, Assistant Inspector General for Inspections and Evaluations




                                              37
